In The
SUPREME COURT OF THE UNITED STATES

EDWARD RONNY ARNOLD, PRO SE
Petitioner,
v.
HERBERT SLATERY, III,
TENNESSEE ATTORNEY GENERAL AND REPORTER,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

CERTIFICATE OF COMPLIANCE
1. This Writ of Certiorari in the Supreme Court of the United States (Rule 14)
complies with the word limit and page limit set forth in Rule 33.1 (d) because,
according to the word-count feature of Microsoft Word 2003 SP2, it contains 6,388
words excluding parts of the Writ of Certiorari exempted and is under the page
limit of 40 as set by Rule 33.2 (d).
2. This brief complies with the typeface requirements of Rule 33.1 (b) and the
style requirements of Rule 33.1 (a) because it has been prepared in Century
Schoolbook typeface using Microsoft Office Word 2003 SP2 in 12 point font.
Respectfully submitted,

l/L
Edward Ronny Arnold, Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044
Pro Se Litigant
Dated: May 1, 2020

